DOE/IG-0545




          AUDIT                    CYBER-RELATED CRITICAL
                                       INFRASTRUCTURE
         REPORT                       IDENTIFICATION AND
                                    PROTECTION MEASURES




                                             MARCH 2002




      U.S. DEPARTMENT OF ENERGY
     OFFICE OF INSPECTOR GENERAL
       OFFICE OF AUDIT SERVICES
                       U. S. DEPARTMENT OF ENERGY
                             Washington, DC 20585

                                  March 20, 2002


MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman (Signed)
                         Inspector General

SUBJECT:                 INFORMATION: Cyber-Related Critical Infrastructure Identification
                         and Protection Measures

BACKGROUND

In recent years, critical infrastructure protection has taken on increasing national importance as
attacks and resulting damage to the country's critical cyber interests have increased. In 1998, in
response to these threats, the Administration issued a directive to demonstrate the Federal
government's commitment to protecting critical assets. More recently, President Bush signaled
his support for critical infrastructure protection efforts by issuing Executive Order 13231,
Critical Infrastructure Protection in the Information Age. The President's order seeks to
strengthen the protection of critical information systems, including emergency preparedness
communications, and the physical assets that support those systems.

The Office of Inspector General has undertaken a series of reviews designed to evaluate the
security and performance of the Department's information technology programs. Based on this
work, we concluded in our Special Report on Management Challenges at the Department of
Energy, (DOE/IG-0538, December 2001) that security of cyber assets is one of the most
significant challenges facing the Department. The objective of this audit was to determine
whether the Department had identified and developed protection measures for its critical cyber
and related physical infrastructure assets.

RESULTS OF AUDIT

While the Department had initiated certain actions designed to enhance cyber security, it had
not made sufficient progress in identifying and developing protective measures for critical
infrastructures or assets. For example, our audit disclosed that:

   •   The identification of national priority assets had not been finalized and the specific
       identification of critical cyber-related assets had not begun;

   •   Corrective actions to address issues disclosed by our previous audit of the Department's
       infrastructure protection program were progressing slowly and remained incomplete;

   •   Specific, quantifiable infrastructure protection-related performance measures had not
       been developed; and,

   •   The Department's critical infrastructure protection plan had not been updated.
                                                2


In our judgment, even recognizing the magnitude of the challenges it faces in this arena, the
Department had not devoted sufficient resources to identifying and developing protective
measures for cyber-related assets. Lack of progress in this important area increased the risk of
malicious damage to critical cyber assets with all of the associated potential impacts.

Subsequent to the completion of our audit, the Office of Management and Budget (OMB)
reemphasized the importance of identifying critical cyber-related assets. In its evaluation of the
Department's Fiscal Year 2001 report on implementation of the Government Information
Security Act of 2001, OMB indicated that delays in initiating this activity draw into question the
Department's understanding of the importance of identifying critical assets as a precursor to
protecting them.


MANAGEMENT REACTION

We proposed a number of actions designed to improve implementation of the critical
infrastructure protection program; and management concurred, in principle, with our
recommendations. This included its commitment to identify critical assets and improve
protective measures. The Department did not, however, assign responsibility or authority for
implementing and executing most of our recommendations, preferring instead to defer action
until completion of a national-level protection plan by the Office of Homeland Security.

While we agree that the Department's efforts should be consistent with the national plan, we are
concerned that protective activities may be inordinately delayed. At a minimum, the
Department should assign specific responsibilities, with established milestones, for
implementing our recommendations.


Attachment

cc:    Deputy Secretary
       Under Secretary for Energy, Science and Environment
       Administrator, National Nuclear Security Administration
       Director, Office of Security
       Chief Information Officer
CYBER-RELATED CRITICAL INFRASTRUCTURE IDENTIFICATION
AND PROTECTION MEASURES

TABLE OF
CONTENTS



                Overview

                Introduction and Objective ......................................................... 1

                Conclusions and Observations .................................................. 2


                Identification and Protection Measures

                Details of Finding ....................................................................... 3

                Recommendations and Comments ........................................... 7


                Appendices

                Scope and Methodology ............................................................ 9

                Prior Reports ............................................................................ 10

                Management Comments .......................................................... 12
OVERVIEW

INTRODUCTION AND   Since 1998, critical infrastructure protection has taken on increasing
OBJECTIVE          national importance. Attacks and resulting damage to the country's
                   critical cyber interests have increased dramatically in recent years. In
                   response to these threats, Presidential Decision Directive 63 (PDD 63),
                   Critical Infrastructure Protection was issued to demonstrate the Federal
                   government's commitment to protecting critical assets. PDD 63
                   required Federal agencies to take action to eliminate significant
                   vulnerabilities, especially cyber-related, and to assure the continuity
                   and viability of the nation's critical infrastructures.

                   In response, the Department of Energy (Department) assigned the Chief
                   Information Officer responsibility for information assurance and the
                   Chief Infrastructure Assurance Officer responsibility for protecting
                   physical assets. In addition, overall programmatic responsibility for
                   critical infrastructure identification and protection efforts was
                   consolidated under the Office of Security. Furthermore, the
                   Department prepared an initial protection plan that described the overall
                   methodology for identifying critical assets, performing vulnerability
                   assessments, and establishing milestones for completing these tasks.

                   While PDD 63 is no longer binding, the current administration has
                   signaled its continuing support for critical infrastructure protection
                   efforts. On October 16, 2001, President Bush issued Executive Order
                   13231 (EO 13231), Critical Infrastructure Protection in the
                   Information Age to ensure the protection of critical information
                   systems, including emergency preparedness communications, and the
                   physical assets that support such systems. The Secretary also recently
                   renewed the focus on critical infrastructure protection by seeking to
                   clarify mission requirements and priorities relating to accomplishing
                   critical infrastructure protection initiatives. In October 2001, the
                   Secretary established a priority for ensuring security by strengthening
                   the ability to identify and protect critical infrastructures that support the
                   production and delivery of energy. The Secretary pledged completion
                   of a strategic mission review to identify changes necessary to increase
                   the Department's ability to use every resource at its disposal to support
                   missions, including protecting critical energy infrastructure and
                   enhancing homeland defense against new terrorist threats.

                   The objective of our audit was to determine whether the Department
                   had identified and developed protection measures for its critical cyber
                   and related physical infrastructure or assets.




Page 1                                                           Introduction and Objective
CONCLUSIONS AND   While the Department had initiated certain actions, it had not made
OBSERVATIONS      sufficient progress in identifying and developing protective measures
                  for certain critical infrastructures or assets. For example, the process
                  for identifying national-priority assets had not been finalized and
                  specific identification of critical cyber-related assets had not begun.
                  Corrective actions to address issues disclosed by our previous audit of
                  the Department's infrastructure protection program were also
                  progressing slowly and remained incomplete. For instance, the
                  Department's critical infrastructure protection plan had not been
                  updated and specific quantifiable performance measures had not been
                  developed. EO 13231 requires Federal agencies to protect critical cyber
                  and related physical assets that support national security and other
                  government programs. The Department had not devoted sufficient
                  priority or resources to identifying and developing protective measures
                  for cyber-related assets. Lack of progress in this important area
                  increased the risk of malicious damage to critical cyber assets and could
                  adversely impact the Department's ability to sustain operations and
                  deliver essential services.

                  This audit identified issues that management should consider when
                  preparing its yearend assurance memorandum on management controls.



                                                               Signed
                                                    Office of Inspector General




Page 2                                                  Conclusions and Observations
IDENTIFICATION AND PROTECTION MEASURES

Cyber-Related Critical   While the Department had initiated certain actions, it had not made
Infrastructure           sufficient progress in identifying and developing protective measures
Identification and       for certain critical infrastructures or assets. For example, the
Protection Measures      identification of critical cyber-related assets had not begun and
Insufficient             corrective actions for prior recommendations were progressing slowly
                         and remained incomplete.

                                        Asset Identification and Protection Efforts

                         Despite a collaborative effort with the national Critical Infrastructure
                         Assurance Office, the Department had made insufficient progress in
                         identifying and developing protection measures for its critical
                         infrastructures or assets. While the initial phase of this collaborative
                         effort resulted in a draft document representing a preliminary
                         assessment of national-priority assets, the product lacked specificity and
                         had not been reviewed for sufficiency or approved by Department
                         management. The assessment, referred to as the Project Matrix, was
                         developed based on an outward, national priority focus, and did not
                         specifically identify critical internal cyber and related assets. For
                         example, the review did not identify critical systems such as nuclear
                         material tracking and accountability systems at a number of sites and
                         certain sensitive systems controlling electric power distribution. Rather
                         than proceeding on a separate track, the Department delayed for more
                         than a year action to identify and develop protective measures for
                         internal critical cyber infrastructures while it worked on the Project
                         Matrix. Management officials told us that because of competing
                         priorities, they were uncertain whether the Department would complete
                         the Project Matrix or proceed with specifically identifying critical cyber
                         and related physical assets.

                                         Protection Program Corrective Actions

                         The Department had also been slow to address problems disclosed by
                         our previous audit of its critical infrastructure protection program.
                         Although management initially agreed to address problems reported in
                         Implementation of Presidential Decision Directive 63, Critical
                         Infrastructure Protection, (DOE/IG-0483, September 2000), corrective
                         actions were proceeding slowly and remained incomplete. Specifically,
                         quantifiable performance measures had not been developed and
                         incorporated in the Annual Performance Plan. In addition, the
                         protection plan had not been updated, a comprehensive resource plan
                         had not been developed, and additional funds for internal efforts had




Page 3                                                                         Details of Finding
         not been reallocated or sought. While some action was taking place,
         the Department did not finalize its management response to our audit
         recommendations until August 2001, almost a year after the report was
         issued.

         Specific quantifiable performance measures had not been developed
         and incorporated in the Department's Annual Performance Plan. Based
         on a review of the Fiscal Year (FY) 2002 Performance Plan, we
         determined that only a general, non-quantifiable performance measure
         requiring the Office of Security to engage in critical infrastructure
         protection activities had been included. As we noted in our report on
         Performance Measures at the Department of Energy, (DOE/IG-0504,
         May 2001), a measure contained in the FY 2000 plan for initiating the
         correction of critical infrastructure related vulnerabilities was similarly
         flawed in that it did not establish measurable or quantifiable
         commitments. These two plans lacked specific quantifiable goals such
         as defining program office and field element responsibilities for
         participation in the critical asset identification process. Without
         focused measures, accountability for mission performance and
         satisfaction of Secretarial priorities may not be achievable.

         Even though the January 2001 Report of the President of the United
         States on the Status of Federal Critical Infrastructure Protection
         Activities indicated that the Department was in the process of revising
         its protection plan, actual revisions to the plan have yet to be made.
         Since being drafted in 1998, the Department's protection plan had not
         been amended or revised to correct deficiencies or to reflect changes in
         methodology and amendments to established milestones. Although
         management's original milestone for amending the plan was December
         2000, it has since announced that it will delay modifications until after
         asset identification has been completed. For instance, the plan had not
         been amended to correct observed deficiencies in the threat analysis and
         emergency planning areas. Failure to update the protection plan
         deprived the Department of a valuable resource for guiding its critical
         infrastructure identification and protection program.

         The Department also had not acted on our recommendations to prepare
         a detailed resource plan and reallocate funding for critical infrastructure
         protection efforts. A resource plan could serve as a checklist or
         baseline for not only what is required but also for what must be done.
         Such a plan also could have helped the Department take advantage of
         collateral activities such as its cyber security protection program and




Page 4                                                          Details of Finding
                             established requirements for program and field location participation in
                             the protection effort. Other than an initial reallocation of $125,000, the
                             Department has not budgeted for or identified specific funding for critical
                             infrastructure protection efforts. Based on our review of the FY 2002
                             budget request, we determined that funds had not been budgeted or
                             reallocated from existing funding authority. Making internal
                             requirements known in budget requests would have demonstrated to the
                             Office of Management and Budget and Congress that the Department
                             was committed to the critical infrastructure protection program.

Presidential                 EO 13231 requires Federal agencies to develop a program for protection
Directive                    of critical cyber and related physical assets that support national security
                             and other government programs. Specifically, the Order requires that the
                             protection program provide initial and continuous efforts to secure
                             information systems for critical infrastructure, including emergency
                             preparedness communications, and the physical assets that support such
                             systems. For instance, the components of a program for the protection of
                             critical infrastructure consist of developing a protection plan to guide
                             efforts for identification of assets to be protected, vulnerability
                             assessments of these infrastructures, and performance of corrective
                             actions where necessary to adequately protect them. As emphasized by
                             the Order, protection of these information systems and related physical
                             assets is essential to the telecommunications, energy, financial services,
                             manufacturing, water, transportation, health care, and emergency services
                             sectors.

Internal Implementation      While some progress had been made in the preliminary identification of
Efforts Have Not Been        national-level critical assets, the Department had not devoted sufficient
Given Sufficient Attention   priority to identifying and developing protective measures for cyber-
or Priority                  related assets. Specifically, competing priorities and organizational
                             changes and challenges detracted from internal critical infrastructure
                             planning and assessment efforts. For instance, Department officials
                             indicated that they had focused on other exigent issues such as cyber and
                             physical security rather than infrastructure protection. Officials from the
                             Office of Security also indicated that their organization was now focused
                             on policy development and no longer had the authority to direct critical
                             infrastructure protection activities. Without clear authority and direction,
                             in the midst of changes in internal management and structure, it will be
                             difficult to implement critical infrastructure protection program
                             initiatives.




Page 5                                                                             Details of Finding
                            Cyber Security Protection Program – A Collateral Initiative

                      The Department has been involved in a complex-wide effort to improve
                      cyber security that has the potential to facilitate critical infrastructure
                      planning and assessment activities. As we pointed out in our report on
                      Audit of Unclassified Computer Network Security at Selected Field
                      Sites (DOE/IG-0459, February 2000), the Department began this effort
                      to mitigate long-standing network vulnerabilities and improve the
                      overall cyber security climate. As noted in our previous report on
                      PDD 63, while the Department's ongoing initiative had achieved a
                      number of successes, it still had shortcomings and was insufficient,
                      standing alone, to satisfy the mandate of EO 13231. Our recent
                      Evaluation of the Department's Unclassified Cyber Security Program
                      (DOE/IG-0519, August 2001), disclosed, for instance, that a life cycle
                      approach to identifying cyber security related risks and vulnerabilities
                      had not been implemented for many of the networks and mission
                      critical systems. In addition, configuration management weaknesses
                      and problems with controls related to the use and administration of
                      passwords for these networks and systems existed at a number of sites.

                      Corrective actions taken by the Department as part of the cyber security
                      program, while important, should be viewed as a foundation rather than
                      a substitute for implementation of the critical infrastructure protection
                      program. For instance, as noted in our prior report, vulnerability tests
                      conducted in connection with the initiative were limited in scope, and
                      may not satisfy the need to evaluate interdependencies between
                      Departmental systems and external infrastructures such as
                      telecommunications, power, and transportation. Furthermore, as we
                      pointed out in our recent cyber security evaluation, vulnerability tests
                      for some of the Department's cyber assets were not completed as
                      required.

Implementation        Lack of progress in this important area increased the risk of malicious
Shortcomings Could    damage to critical cyber assets and could adversely affect the
Impact Departmental   Department's ability to sustain operations and deliver essential services.
Systems               As noted in our recent Evaluation of the Department's Unclassified
                      Cyber Security Program, a number of observed cyber security
                      vulnerabilities were at least partially attributable to the lack of a
                      comprehensive identification of critical cyber-related assets and the
                      preparation of associated risk assessments. Without benefit of critical
                      asset identification, vulnerability assessments, and corrective actions,
                      the Department will not be able to swiftly eliminate any significant




Page 6                                                                       Details of Finding
                  vulnerabilities or ensure that any interruption or manipulation of critical
                  assets will be brief, infrequent, manageable, and minimally detrimental.
                  Such protection efforts are necessary to ensure the Department
                  maintains its ability to perform national and defense missions, deliver
                  essential services, and ensure public safety and health.


RECOMMENDATIONS   We recommend that the Director, Office of Security, in cooperation
                  with the Chief Information Officer and Under Secretaries for Nuclear
                  Security, and Energy, Science and Environment, take the following
                  actions to improve critical cyber and related physical infrastructure
                  protection:

                         1. Monitor and coordinate development and implementation of
                            critical infrastructure identification and protection efforts;

                         2. Revise the critical infrastructure protection plan or
                            implementation blue print;

                         3. Revise Annual Performance Plans to include specific,
                            quantifiable critical infrastructure protection goals for the
                            Department's various programs and sites;

                         4. Reallocate, including specifically identifying, budgetary
                            resources to satisfy critical infrastructure protection
                            initiatives; and,

                         5. Prepare detailed resource plans for critical infrastructure
                            protection efforts.


MANAGEMENT        Management concurred, in principle, with our recommendations, and
REACTION          indicated that certain corrective actions were in process or had been
                  completed. Specifically, management pledged to fully identify critical
                  cyber and related physical assets to improve protection efforts through
                  increased management attention. Management also indicated that it
                  intended to defer action on the majority of our recommendations until
                  completion of a National Infrastructure Protection Plan by the Office of
                  Homeland Security.




Page 7                                               Recommendations and Comments
AUDITOR COMMENTS   Management's response was not coordinated with line organizations
                   and was not completely responsive to our recommendations.
                   Management did not specifically assign responsibility for implementing
                   most of our recommendations. While we agree that the Department's
                   actions should be consistent with the national effort, we are concerned
                   that protective efforts may be delayed until some indefinite time in the
                   future. We believe that, at a minimum, the Department should assign
                   responsibility, with established milestones, for implementing each of
                   our recommendations.




Page 8                                                                Auditor Comments
Appendix 1

SCOPE         The audit was performed between November 2001 and January 2002 at
              Department Headquarters in Washington, DC. The scope of the audit
              work was primarily limited to performing a follow-up review of
              specific actions taken by the Department to identify and protect cyber-
              based critical infrastructure assets for compliance with Federal policy.


METHODOLOGY   To satisfy the audit objective, we:

                  •   Reviewed applicable directives and guidance, such as the
                      Government Performance and Results Act of 1993, and EO
                      13231, Critical Infrastructure Protection in the Information
                      Age;

                  •   Analyzed Departmental budget requests, and performance
                      measures and results for information related to critical
                      infrastructure protection efforts;

                  •   Reviewed status reports and documentation of corrective
                      actions taken on prior Office of Inspector General
                      recommendations relating to critical infrastructure
                      identification and protection; and,

                  •   Held discussions with management officials from the Offices
                      of Security, Chief Information Officer, and the National
                      Nuclear Security Administration.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Because our review
              was limited, it would not necessarily have disclosed all internal control
              deficiencies that may have existed. Also, we did not rely on computer-
              processed data to accomplish our audit objective. An exit conference
              was held with management officials on March 13, 2002.




Page 9                                                      Scope and Methodology
Appendix 2

                                            PRIOR REPORTS


     •    Audit of Unclassified Computer Network Security at Selected Field Sites, (DOE/IG-0459,
          February 2000). The report disclosed that six Departmental sites had significant internal or
          external weaknesses that increased the risk that their unclassified computer networks could be
          damaged by malicious attack. The OIG pointed out the need for correcting vulnerabilities found
          and establishing specific goals and performance measures for improving the level of
          unclassified computer security relating to network operations.

     •    Implementation of Presidential Decision Directive 63, Critical Infrastructure Protection, (DOE/
          IG-0483, September 2000). The report stated that while external energy sector infrastructure
          protection activities were progressing and a number of internal and collateral actions had been
          completed, the Department had not implemented its critical infrastructure protection plan to
          mitigate significant vulnerabilities, or assure the continuity and viability of its critical
          infrastructures.

     •    Special Report on Management Challenges at the Department of Energy, (DOE/IG-0538,
          December 2001). The report stated that while the Department had taken steps to improve in
          areas identified as challenges, such as management of infrastructure and asset inventories, more
          needed to be done. The OIG pointed out that while some challenges were amenable to near-
          term resolution, others can only be addressed by a concerted, continuing effort.

     •    Department of Energy Consolidated Financial Statements, (DOE/IG-FS-01-01, February 2001).
          The report identified three reportable weaknesses in the Department's system of internal controls
          pertaining to performance measures, financial management, and unclassified information
          system security. Specifically, performance goals, in many cases, were not output or outcome
          oriented and/or were not meaningful, relevant, or stated in objective or quantifiable terms. The
          OIG also pointed out that the Department had certain network vulnerabilities and general access
          control weaknesses.

     •    Performance Measures at the Department of Energy, (DOE/IG-0504, May 2001). The report
          stated that although progress had been made in implementing the Government Performance and
          Results Act of 1993, the Department had problems with the usefulness and completeness of its
          performance measures and the validity and accuracy of some of the results reported. The OIG
          pointed out that some performance measures were not objective or quantifiable, performance
          measures relating to major management challenge areas were missing, and performance results
          were not always accurate.




Page 10                                                                                     Prior Reports
     •    Evaluation of the Department's Unclassified Cyber Security Program, (DOE/IG-0519, August
          2001). The report disclosed that while the Department made improvements in its unclassified
          cyber security program, the program did not adequately protect data and information systems as
          required by the Government Information Security Reform Act. The OIG pointed out that the
          Department continued to have problems with risk management, contingency planning, computer
          incident reporting, training management, configuration management, access control, and
          implementation of cyber security policy.

     •    Inspection of Cyber Security Standards for Sensitive Personal Information, (DOE/IG-0531,
          November 2001). The report disclosed that the Department does not always meet the
          requirements prohibiting unauthorized disclosure of Privacy Act/FOIA personal information
          addressed in the Privacy Act of 1974, the Freedom of Information Act, and the Computer
          Security Act of 1987. The OIG also pointed out that the Department did not have agency-wide
          baseline criteria for protecting Privacy Act/FOIA personal information.

     •    Information Security: Vulnerabilities in DOE's Systems for Unclassified Civilian Research,
          United States General Accounting Office (GAO), (GAO/AIMD-00-140, June 2000). The report
          stated that unclassified information systems for scientific research are not consistently protected
          at all DOE laboratories. GAO recommended that the Secretary take immediate steps to
          strengthen information technology security management at DOE laboratories.

     •    Report on Critical Infrastructure Protection – Comprehensive Strategy Can Draw on Year 2000
          Experiences, GAO, (GAO/AIMD-00-1, October 1999). The report stated that our nation's
          computer based critical infrastructures are at increasing risk of severe disruption. The report
          pointed out that, in the Federal government, these risks are not being adequately addressed, and
          that tests and evaluations show that Federal systems are not being effectively protected, even
          though these systems process, store, and transmit enormous amounts of sensitive data and are
          indispensable to agency operations. GAO concluded that it is important that the Federal
          government take advantage of experience gained in addressing the Year 2000 challenge as it
          strives to reduce the risk associated with longer-term threats to critical infrastructures.




Page 11                                                                                       Prior Reports
Appendix 3




Page 12      Management Comments
Page 13   Management Comments
Page 14   Management Comments
                                                                               IG Report No. :DOE/IG-0545

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
